                                  AUDIT




 GOVTRIP USE AND MONITORING BY THE
 U.S. DEPARTMENT OF THE INTERIOR—
 OFFICE OF SURFACE MINING
 RECLAMATION AND ENFORCEMENT




Report No.: WR-IN-OSM-0014-2012   May 2013
                   OFFICE OF
                   INSPECTOR GENERAL
                   U.S. DEPARTMENT OF THE INTERIOR

                                                                                                  MAY 2·1 2013

Memorandum

To:                 Joseph G. Pizarchik
                    Director, Office of Surface Mining Reclamation and Enforcement

From:               Kimberly Elmore ~ ~
                    Assistant Inspector General for Audits, Inspections, and Evaluations

Subject:            Final Audit Report - GovTrip Use and Monitoring by the U.S. Department of the
                    Interior - Office of Surface Mining Reclamation and Enforcement
                    Report No. WR-IN-OSM-0014-2012

       The U.S. Department of the Interior (DOl) spends approximately $250 million a year
through GovTrip on travel, with the Office of Surface Mining Reclamation and Enforcement
(OSM) accounting for about $2.8 million of these funds.

        This report is part of our DOl -wide audit of GovTrip and related travel processes and
procedures. Although the contract for a new system is scheduled to replace GovTrip in
November 2013, we found several significant issues specific to OSM that warrant your attention
under the current GovTrip travel system. We plan to issue an audit report to the Deputy
Secretary that will focus on DOl's planned acquisition and use of a new travel management
system.

        We initiated an audit of DOl's GovTrip use and monitoring based on limitations in
GovTrip that we discovered during a prior evaluation, including DOl's and its bureaus' inability
to freely access travel system reports from GovTrip and the uncertainty of the reliability of the
data in those reports. 1 We determined that the risks presented by these limitations were
significant enough to warrant further review.

         The objective of our audit was to assess DOl's implementation, use, and monitoring of
GovTrip as part of the overall travel system. Specifically, we assessed DOl's ability to reconcile
its various systems to determine whether data and dollars spent are fair and accurate. The audit
scope encompassed fiscal years 2009 and 2010 and included testing of more than 700 travel
vouchers and 300 charge card statements across DOl's bureaus. We also interviewed more than
100 DOl and bureau personnel involved in the travel process, including approving officials,
intermediate reviewers, and bureau travel leads.

       We conducted this audit in accordance with Generally Accepted Government Auditing
Standards. These standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our

1   " U.S. Department of the Interior's Video Teleconferencing Usage," WR-EV-MOA-0004-2010. December 2011.



                                Office of Audits, Inspections, and Evaluations I Washington, DC
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We are attaching further details as to the
objective, scope, methodology, and testing performed during this audit (see Attachment 1).

Background

        Since August 2007, DOI has used GovTrip under a task order from the General Services
Administration’s (GSA) master contract with Northrop Grumman for E-Gov Travel Services
(ETS). GSA’s master contract establishes GovTrip’s general requirements, and DOI’s task order
lays out other specific requirements. GSA’s master contract is set to expire in November 2013, at
which time DOI expects a new system to take the place of GovTrip under a new GSA contract
(ETS-2).

        GSA has selected a single vendor for ETS-2, though the system implementation process
is behind schedule. The bid process was initially delayed by legal challenges from one of the
bidding companies, and a current protest of the award is delaying the process even further. ETS-
2’s general requirements include more internal control points and reporting capabilities, but
much about ETS-2’s specific requirements and controls is still unknown. The unknown and
untested components of the new contract and travel system present both an opportunity and a
responsibility to assess how well OSM uses the current system and to determine ways in which it
can improve prior to the transition to ETS-2.

        Both GovTrip and the pending ETS-2 have the Federal Travel Regulation (FTR) as part
of their foundation, which provides the regulatory framework for the approval, processing, and
payment of travel costs within the Federal Government. The GovTrip system has worked in
concert with these regulations to facilitate travel planning and payment, as will the pending ETS-
2 when it is in place.

       While we did discover several issues in our testing, we found that compared to other
bureaus, OSM had relatively few problematic vouchers and charge card statements. We
recognize and appreciate OSM’s efforts in managing travel and encourage OSM to continue to
improve.

Issues Found During Travel Voucher Testing

       We randomly selected 90 OSM vouchers and their related authorizations from fiscal
years 2009 and 2010. The total amount paid from these vouchers was about $70,000, which
included about $32,000 paid directly to travelers. We found the following areas of concern.

Missing Documentation and Errors in Expenses

        The FTR requires that receipts be provided for all expenses greater than $75, as well as
all receipts for lodging expenses, regardless of dollar amount (FTR § 301-52.4). We found 11
vouchers that did not have the required supporting documentation for all travel expenses. Most
of these expenses were for hotel, rental car or personal vehicle mileage (POV), and airfare,
which are often the three highest value expenses on vouchers. For example, one traveler claimed



                                                                                                    2
$101 in reimbursable mileage for driving to and from the airport but did not include any
documentation supporting the more than 200-mile roundtrip.

        We also found 13 vouchers that either did not include all the expenses listed in the
traveler’s receipts or the information shown on the receipts did not match the expenses entered in
the voucher. For example, one voucher had the lodging costs accounted for both under the per
diem costs and as an expense, overstating the actual cost of the trip. Another voucher showed
reimbursable mileage to and from the airport of 80 miles instead of the 50 miles that it should
have stated.

        In addition, one traveler appeared to be over-reimbursed by more than $550; the voucher
was approved even though it included unjustified expenses. Specifically, the traveler used a POV
to drive to another State’s airport more than 200 miles away. The traveler also booked the flight
on an Internet travel site instead of the authorized Government travel system, resulting in double
charging airfare. The voucher also showed a rental car upgrade to a Jeep for which the
Government paid; gas used for personal travel during the trip; and extra time and per diem to fly
into Denver, CO, even though other airports were much closer to the site location in Wyoming.

        In all of these examples, travelers and associated approving officials requested or
approved travel documents with inappropriate travel allowances or failed to document the
justification for variances from normal or reasonable travel allowances. Whenever travelers
request approval for travel plans, they must meet the FTR requirements. Further, when
submitting vouchers for travel, travelers are required to abide by the FTR rules, and approvers
must affirm that the vouchers they are approving meet these requirements. In each of these
examples, neither the traveler nor the approver met these requirements of due diligence.

Authorizations Created After Trip Date

        Of the 90 authorizations selected for testing, 18 authorizations were created or approved
after the trip departure date. Although the FTR does permit this practice, FTR § 301-2.1 states:

       …Generally you must have written or electronic authorization prior to incurring
       any travel expense. If it is not practicable or possible to obtain such authorization
       prior to travel, your agency may approve a specific authorization for
       reimbursement of travel expenses after travel is completed.

         Of the authorizations tested, 20 percent failed to meet the general authorization
requirement, but there is no evidence that they met the “not practicable or possible” standard
stated above for the exemption. Further, the practice of creating or approving an authorization
after trip departure could contribute to an internal control breakdown if approvers feel pressured
to authorize already incurred travel expenses due to the financial impacts that would otherwise
fall to the employee responsible for all travel costs incurred.




                                                                                                     3
Auto-Approval

         Nearly all of the authorizations we tested (89 of 90) used GovTrip’s auto-approval
feature, which allows travelers to arrange and book trips without supervisory approval. This
feature was developed when all travel arrangements used a paper-based system. Auto-approval
was intended to streamline travel arrangements for routine, mission travel and for cases of
emergency travel. Because travelers now arrange travel electronically, and supervisors approve it
electronically, the need for auto-approval is greatly limited. We found in interviews with travel
supervisors and in our review of travel vouchers, however, that many employees are still
authorized to use auto-approval for most travel, even though much of it is routine and known
about weeks or months in advance. Because employees are authorized to auto-approve their own
travel, the internal control safeguard inherent in obtaining supervisory approval for the use of
staff time and travel funds before the trip begins is being circumvented, thus increasing the
potential for fraud, waste, or mismanagement to go undetected.

Mode of Transportation Not Documented or Not Justified

         Of the 90 vouchers selected for testing, 11 did not indicate the mode of transportation
used to travel to the temporary duty (TDY) location. Based on the proximity of the TDY location
to the traveler’s duty station or the absence of POV mileage claimed, these travelers may have
used a Government-owned vehicle (GOV), a POV, or traveled with another person. This missing
information results in data that are unreliable for determining the true cost of travel and the
frequency or validity of using a GOV for fleet management purposes. In addition, supervisors
cannot make a determination whether the mode of transportation for travel is advantageous to the
Government.

        In addition, FTR § 301-10.4 requires that the most advantageous and expeditious method
of transportation be used. In general, FTR deems a common carrier to be the most expeditious.
Of the 90 vouchers we tested, 15 showed large mileage claims for POV travel without an
accompanying justification or cost comparison to common carrier transportation costs. The FTR
states that reimbursement to the traveler is allowed for use of POV when the agency determines
that such travel is advantageous to the Government (FTR § 301-10.303), but there is no evidence
in the vouchers that OSM employees made this determination.

        For example, one voucher claimed POV mileage reimbursement for more than 1,000
miles without providing any cost comparison, and a second voucher merely included a statement
that the use of a POV for driving more than 800 miles was beneficial to the Government with no
additional support. A third voucher included an approved POV mileage claim for 614 miles with
no cost comparison. We also calculated the estimated mileage for this trip based on an Internet
mapping application and found that the 614 miles claimed exceeded our estimate by more than
200 miles. The voucher included no explanation for this extra mileage. A fourth voucher showed
that the traveler chose to use a POV to drive to the site location multiple States away. Personal
preference is not an acceptable basis for determining the method of transportation.




                                                                                                4
Issues Found During Charge Card Statement Testing

        During our audit of the travel process, we learned that the only internal control
mechanism used to ensure the validity of travel charges was the required supervisory review of
charge card statements. When supervisors do not adhere to this internal control, it increases the
risk of management not detecting incorrect or improper charges because there are no other
procedures in place to ensure that supervisors are adequately reviewing and approving both
travel vouchers and charge card statements. Our tests of charge card statements covered only a
fraction of all OSM travel card statements. Unfortunately, even in our small random selection of
15 charge card statements from 2 OSM office locations, we found lax supervisory reviews that
presented an internal control risk.

Unexplained Transactions

        Of the 15 statements tested, we found 2 statements with expenses that did not match the
expenses reported in GovTrip. One of these statements showed a cash advance withdrawal above
the allowed per diem rate in addition to meal charges on top of that amount. The other statement
showed a parking fee that occurred outside of official travel during personal time. Though the
questionable costs of these charges are of relatively low monetary value (under $100), both of
these statements belonged to OSM bureau travel leads, reinforcing the need for careful scrutiny
at all Bureau levels.

Conclusion and Recommendations

        Because ETS-2 is still several months from coming online, OSM has an opportunity to
improve travel management practices under the current GovTrip system and through the
transition. Improving internal controls now will help strengthen overall travel management
controls when OSM fully transitions to the new travel system.

   1. OSM should require supervisors to—

       a. verify that vouchers contain supporting documentation as required by the FTR and
          accurately reflect costs incurred during travel;
       b. ensure travel authorizations are created and approved prior to travel, with the only
          exception being bona fide emergency travel;
       c. verify that POV mileage claimed by travelers is advantageous to the Government and
          clearly documented in the travel authorization;
       d. ensure that use of a GOV is consistently documented in the travel authorization and
          voucher; and
       e. verify and approve all charges on charge card statements.

       Agency Response: In its March 28, 2013 response, OSM concurred with
       Recommendation 1 parts a, b, c, and d, and identified target dates and responsible
       officials for implementation. For Recommendation 1 part e, OSM agreed that supervisors
       should verify all charges on statements and that it conducts quarterly reviews to ensure
       compliance with DOI’s charge card policy, but did not agree with the exceptions noted in



                                                                                                5
       the report. Therefore, OSM believed that no further action was required at this time see
       Attachment 2).

       OIG Reply: We consider Recommendation 1, parts a, b, c, and d resolved but not
       implemented and Recommendation 1 part e resolved and implemented. OSM’s overall
       comments that it did not find the errors we specifically highlighted in this report is
       inconsistent with conversations we had with OSM travel and payment officials. When
       discussing the report examples, OSM stated that it was taking actions to address the
       report findings and exceptions. We appreciate the efforts that OSM has already taken to
       manage and administer its travel process and encourage the continuation of such efforts.
       We will refer the recommendation to the Assistant Secretary for Policy, Management and
       Budget (PMB) for implementation tracking (see Attachment 3).

   2. OSM should make changes to correct existing deficiencies, including—

       a. creating and implementing policy limiting the use of auto-approval by employees to
          legitimate emergency travel; and
       b. creating and implementing policy requiring supervisors to reconcile charge card
          statements with travel vouchers.

       Agency Response: In its response, OSM agreed with Recommendation 2 part a and
       identified target dates and responsible officials for implementation, but it did not agree
       with part b and believes that no further action or policy is required at this time (see
       Attachment 2).

       OIG Reply: We consider this recommendation resolved but not implemented. Regarding
       Recommendation 2 part b, we recognize that we did not find significant errors on the
       statements, but believe that the reconciliation of travel charge cards with the associated
       travel vouchers will enhance this internal control process. Since OSM is relying on DOI
       policy to determine its approach to charge card reviews, we agree to wait to determine if
       DOI establishes a uniform policy on charge card statement and voucher reconciliation as
       recommended in our separate report to the Deputy Secretary. We will refer the
       recommendation to the Assistant Secretary for Policy, Management and Budget for
       implementation tracking (see Attachment 3).

       The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all reports issued, actions taken to implement our recommendations,
and recommendations that have not been implemented.

        If you have any questions or need more specific information about this report’s findings,
please contact me at 202-208-5592.

Attachments (3)




                                                                                                    6
                                                                                     Attachment 1


Objective, Scope, and Methodology

        We conducted this performance audit from November 2010 through April 2012 in
accordance with Generally Accepted Government Auditing Standards. These standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

        We also determined whether OSM had designed and implemented a system of internal
controls or travel management controls to provide reasonable assurance that travel vouchers were
accurate and supported; authorizations were created and approved prior to travel; and charge
card statements were verified, approved, and signed by the traveler and supervisor. We found
weaknesses in OSM’s travel management controls. We discuss these weaknesses and
recommended corrective actions in this report, and if implemented, the recommendations should
improve OSM’s travel management controls.

Objective

        Our objective was to assess the U.S. Department of the Interior’s (DOI) implementation,
use, and monitoring of GovTrip as a part of the overall travel system. Specifically, we evaluated
DOI’s ability to reconcile its various systems to determine whether data and dollars spent are fair
and accurate. We also performed testing to ensure that any existing internal controls were
sufficient to reasonably minimize risk of fraud and errors.

Scope

This was a DOI-wide audit of GovTrip and the related travel system. Our testing included travel
vouchers with travel departures starting in fiscal years 2009 and 2010 along with charge card
statements related to those travel vouchers. In conducting our audit, we visited OSM offices in
Denver, CO, and Homewood, AL.

        Our review of the system included both a performance audit of the current ETS contract
(GovTrip, with a contract period from August 2007 to November 2013) and a review of the
future ETS-2 contract language (contract implementation planned for November 2013). We also
assessed DOI’s integrated charge card program as it relates to travel expenditures.

        During the performance of our audit testing, delays in obtaining access to information
and concerns related to timely reporting necessitated a reduction in the sample size and testing of
both vouchers and charge card statements. We took steps, however, to allocate the reduction in
testing across bureaus, preserving the integrity of our random and judgmental voucher and
charge card statement samples.




                                                                                                  1
                                                                                      Attachment 1


Methodology

         The GovTrip contractor, Northrop Grumman, pulled the voucher testing data from
archived databases, as we were informed that this would be the most accurate and complete way
to establish the voucher universe by bureau and agency. From this universe, vouchers were
statistically sampled using a stratified methodology, and the associated authorizations were also
examined. Once the testing sample was selected, we performed testing of travel vouchers and
authorizations using the live GovTrip environment. Use of the live GovTrip system environment
for document examination was required since the travel program has no “read only” audit
feature, and no alternative data repository is available to DOI.

       Given that our testing was limited to the live data environment, we were not able to
perform “through the system” testing of the software. Thus, we did not perform tests of the
GovTrip system and software itself. Rather, we structured interview questions of key DOI
personnel to ascertain the security of the system and the viability of the input data.

        The National Business Center, Charge Card Support Center (NBC) provided us with the
charge card data. NBC extracted the charge card data from PaymentNet, DOI’s gateway to
integrated charge card program data, which is operated by the contractor J.P. Morgan Chase. We
did not perform a reliability assessment or any system tests for this data since, like GovTrip, this
is a contractor-developed system, so our testing was limited to structured interview questions of
key DOI personnel to ascertain the security of the system and the viability of the input data.
Once the testing sample was selected, we performed tests in the field to ascertain the accuracy
and reliability of reconciliation efforts between the GovTrip voucher and related charge card
transactions.

Use of Computer-Processed Data

        We used the GovTrip and Integrated Charge Card databases to identify travel vouchers
and charge card transactions for travel departures starting in fiscal years 2009 and 2010. We did
not perform reliability assessments of the quality of the data because this was outside the scope
of our review. Data from these systems were used for document and transaction selection and
then reviewed using the electronic and hardcopy records available through DOI. Therefore, the
computer-processed data did not affect the performance of our audit steps.




                                                                                                    2
                                                                                        Attachment 2


                United States Department of the Interior
                          OFFICE OF SURFACE MINING
                       RECLAMATION AND ENFORCEMENT
                                  Washimrton. D.C. 20240


                                  MAR 2 8 2013

Memorandum

To:        Kimberly Elmore
           Assistant Inspector General for Audit           nspections and Evaluations
           Office ~~e Inspector Ge/                 /

Through:   Glen/a~~
           Deputy Director

From:      Georgene  Thompson~/
           Deputy Chief Financial Officer

Subject:   Draft Audit Report- GovTrip Use and Monitoring by the U.S. Department of the
           Interior- Office of Surface Mining Reclamation and Enforcement Report No.
           WR-IN-OSM-0014-2012

The Office of Surface Mining Reclamation and Enforcement (OSM) appreciates the opportunity
to comment on the draft GovTrip Travel Audit Report. We have reviewed the issues and
recommendations and have the following comments.

Travel Voucher Testing
Recommendation 1: OSM should require that supervisors verify that vouchers contain
supporting documentation as required by the FTR and accurately reflect costs incurred during
travel.

Response: OSM agrees. However, we do not agree with the finding that there was missing
documentation and errors in expenses on the vouchers tested. For the exceptions noted, OSM
was able to retrieve the attached supporting documentation in GovTrip.




                                                                                                  1
                                                                                        Attachment 2



OSM believes its practice of having a two-tiered review process ensures that the required
supporting FTR documentation is included with each travel voucher prior to reimbursement.
We do acknowledge that detailed explanations would improve the voucher process. We will
provide guidance to ensure that the appropriate level of detail is entered into GovTrip.

Recommendation 2: OSM should require supervisors to ensure travel authorizations are created
and approved prior to travel, with the exception being a bona fide emergency travel.

Response: OSM agrees there should be few instances where travel authorizations are created
after the trip commencement date. The conversion to ETS-2 later this year will require travel
authorizations to be digitally approved prior to travel, thus addressing the issue. OSM believes
that any change to GovTrip at this time would not be an efficient use of resources. We will,
however, provide guidance reminding supervisors that travel authorizations should be approved
prior to travel, with only a few exceptions for bona fide emergencies. We will continue to
monitor travel closely through our voucher review process to ensure adherence to the guidance.

Recommendation 3: OSM should require supervisors to verify that privately owned vehicles
(POV) mileage claimed by travelers is clearly documented on the travel authorization and
determined to be advantageous to the government.

Response: OSM agrees that supervisors should determine the most advantageous mode of
transportation whether POV or GOV. We recognize that the approving officials need to ensure
that any form of transportation is clearly documented in the travel authorization. OSM will
provide guidance reminding supervisors to be prudent when approving transportation mode and
to ensure that it is clearly noted on the travel authorization.

Recommendation 4: OSM should require supervisors to ensure that use of Government Owned
Vehicles (GOY) is consistently documented in the travel authorization and voucher.

Response: OSM agrees. We will provide guidance to remind supervisors and planners that the
use of GOY be consistently documented.

Recommendation 5: OSM should make changes to correct existing deficiencies by creating and
implementing policy that limits the use of auto-approval by employees to legitimate emergency
travel.

Response: OSM agrees that the use of auto-approvals should be limited; however, we believe
that to change the process now would be an inefficient use of resources since the conversion to
ETS-2 later this year will require that travel authorizations be digitally approved prior to travel.
We will, however, provide guidance reminding supervisors that travel authorizations should be

                                                                                                       2
                                                                                    Attachment 2



approved prior to travel with only a exceptions for bona fide emergencies. OSM will also
continue to monitor travel closely through the voucher review process until the conversion to
ETS-2. At that time this concern will be resolved since the auto-approval option will no longer
be available.

Charge Card Testing
Recommendation 6: OSM should require supervisors to verify and approve all charges on the
charge card statement.

Response: OSM agrees that supervisors should verify all charges on statements. However,
OSM does not agree with the findings and exceptions noted. OSM' s current policy complies
with the DOl charge card policy that requires supervisors to verify and approve charge card
statements. OSM conducts quarterly reviews to ensure compliance with the policy. Based on
the results of our reviews, we do not believe that further-action is required at this time.

Recommendation 7: OSM should make changes to correct existing deficiencies, including
creating and implementing policy requiring supervisors to reconcile charge card statements with
travel vouchers.

Response: OSM currently follows the DOl charge card policy that requires supervisors to
review and sign charge card statements. Based on our current policy and practice to conduct
quarterly reviews to ensure compliance with the policy, we do not agree that further policy is
required at this time.

Item 1 - OSM should require supervisors:

Recommendation               Action to be taken                     Target    Responsible
                                                                    Date      Area
Verify that vouchers         OSM will provide guidance to           4/30/2013 Emailing
contain supporting           ensure that the appropriate level of             Notification from
documentation as             detail is entered into GovTrip.                  Payments Team.
required by the FTR and                                                       Scott Berens
accurately reflect costs                                                      Chief, Payment
incurred during travel                                                        Branch

Ensure travel                Continue current process until          1011/13    Conversion to
authorization is created     conversion to ETS-2 travel later                   ETS-2 (no auto-
and approved prior to        this year. Provide guidance                        approval allowed)
travel, with the exception   reminding supervisors that travel
being a bona fide            authorizations should be approved
emergency travel             prior to travel and there should be
                             few exceptions.

                                                                                                  3
                                                                                    Attachment 2



Verify Privately Owned        OSM will provide guidance             4/30/13    Emailing
Vehicle (POV) mileage         reminding supervisors to be prudent              Notification from
claimed by travelers is       when approving transportation                    Payments Team.
advantageous to the           mode.                                            Scott Berens
Government and clearly                                                         Chief, Payment
documented in the travel                                                       Branch
authorization


Ensure that use of            OSM will provide guidance to          4/30/13    Emailing
Government Owned              remind supervisors and planners                  Notification from
Vehicle (GOV) is              that GOV should be consistently                  Payments Team.
consistently documented       documented.                                      Scott Berens
in the travel authorization                                                    Chief, Payment
and voucher                                                                    Branch
Verify and approve all        No action is required.                Current    Scott Berens
charges on the charge                                               Process    Chief, Payments
card statement                                                                 Branch

Item 2 - OSM should make changes to correct existing deficiencies, including:

Creating and                  OSM will provide guidance             10/1/13    Conversion to
implementing policy           reminding supervisors that travel                ETS-2 (no auto
limiting the use of auto-     authorizations should be approved                approval allowed)
approval by employees to      prior to travel and there should be
legitimate emergency          few exceptions. Continue current
travel                        process until change to ETS-2
                              Travel.
Creating and                  Currently, OSM is following the       Current    Scott Berens
implementing policy           DOl charge card policy. No action     Process    Chief, Payments
requiring supervisors to      required.                                        Branch
reconcile charge card
statement with travel
vouchers

If you have any questions or need additional information, please contact Scott Berens, via email
at sberens@osmre.gov or at (303) 236-0330, extension 302.




                                                                                                   4
                                                                Attachment 3


Status of Recommendations

    Recommendations             Status              Action Required

                                                     We will refer the
                                                  recommendation to the
                            Resolved but not
             1                                 Assistant Secretary for Policy,
                             implemented.
                                                Management and Budget for
                                                tracking of implementation.

                                                     We will refer the
                                                  recommendation to the
                            Resolved but not
             2                                 Assistant Secretary for Policy,
                             implemented.
                                                Management and Budget for
                                                tracking of implementation.




                                                                             1
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
